IN THE SUPREME COURT OF THE UNITED STATES
No. 19Jaxp LaTunNpR, TREASURER

OF THE STATE OF KANSAS,

Petition er,
V.

UNItpo STaTnS

OT'ATTTPNTCA AND

as

AuutoR

ANINBA LPA, IN HER OFFICIAL CAPACITY

oF THE

Sretn

oF AnxANSAS,

Respondents.

CERTIFICATE OF SERVICE
Pursuant to Rule 29.5 ofthe Rules of this Court, I certifu that all parties
required to be served have been served. On May 8,2020,I caused copies of a

Petition for a Writ of Certiorari to the United States Court of Appeals for the
Federal Circuit to be served by first-class mail, postage prepaid, and by electronic

mail (as designated) on the following:
Noel J. Francisco
(supremectbriefs@usdoj. gov)
Solicitor Gen eral
Office of the Solicitor General
United States Department
of Justice
950 Pennsylvania Avenue, N.W
Room 5614
Washington, D.C. 20530-0001
(202) 5r4-22L7
Counsel for Respondent
United States of America

David H. Thompson
(dthomp son@coop erkirk. com)
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-s600
Coun sel for Respon dent Andrea Lea,
in her official capacity as Auditor of
the State of Arlean sas

p,{(fue'd+*:
David C. Frederick
Counsel of Record for Petition er

